35

Petitioner / Pro Se
Proof of Service

I hereby certify that on July 9, 2021, a copy of on Petition for a Writ of Certiorari to
the was filed at US Supreme Court Clerk office.
I further certify that on July 9, 2021, a copy of Petition for. a Writ of Certiorari the
foregoing as mailed by First Class mail, US Mail, postage prepaid, and properly
addressed to the following:

Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Crescent Management LLC
2421W. Memorial, Ste. C421
Oklahoma City, Oklahoma 73134

